1A

APPENDIX A
NOT FOR PUBLICATION WITHOUT THE
APPROVAL OF THE APPELLATE DIVISION
This opinion shall not “constitute precedent of be
binding upon any court.” Although it is posted on the
internet, this opinion is binding only on the parties in
the case and its use in other cases is limited. R. 1:36-3.
SUPERIOR COURT OF NEW JERSEY
APPELLATE DIVISION
DOCKET NO. A-3679-17T4
THE MONEY SOURCE, INC.,
Plaintiff-Respondent,
v.
NORMAN D. COX, JR.,
Defendant-Appellant.
Submitted February 7, 2019 - Decided March 4, 2019
Before Judges O’Connor and DeAlmeida.
On appeal from Superior Court of New Jersey, Chancery
Division, Hudson County, Docket No. F-028081-16.
Norman D. Cox, Jr., appellant pro se.
Stern & Eisenberg, PC, attorneys for respondent
(Salvatore Carollo, on the brief).
PER CURIAM

2A

In this mortgage foreclosure action, defendant
Norman D. Cox., Jr., appeals from a March 23, 2018 order
denying his motion to vacate a default judgment of
foreclosure. He contends he was not served with the
foreclosure complaint and, thus, the judgment must be
vacated. He also asserts he is entitled to relief under Rule
4:50-l(a), we affirm.
I
It is not disputed that, in November 2014,
defendant borrowed $453,632 from plaintiff The Money
Source, Inc., d/b/a Endeavor American Loan Services, and
executed a note to secure payment of such sum, together
with interest and other amounts on the unpaid principal
balance. Defendant also executed a mortgage on property
in North Bergen to Mortgage Electronic Registration
Services, Inc., as nominee for The Money Source.
The loan went into default on May 1, 2016. Four
months later, Mortgage Electronic Registration Systems,
Inc., as nominee assigned the mortgage to The Money
Source, which filed a foreclosure complaint on October 14,
2016. Efforts to serve defendant in New Jersey were
unsuccessful. Suspecting he lived our of state, The Money
Source utilized search services to determine defendant’s
residence. Plaintiff determined defendant resided at a
specific address in Brooklyn, where a process server
served the summons, complaint, and other documents
upon an adult at defendant’s address. Defendant asserts
he was not served, but the evidence indicates he was
served in accordance with Rule 4:4-4.

3A

Specifically, the affidavit of service signed by the
process server states that, on November 4, 2016, he
personally delivered the summons, complaint, and
documents attached to the complaint to a “Neville Cox,”
noted to be twenty-one years or older, at 853 Empire
Boulevard, Apartment D15, Brooklyn, New York. The
affidavit further states he asked Neville Cox whether
defendant was in the military and he replied that he was
not, indicating he knew defendant.
In March 2017, plaintiffs attorney received a letter
from an attorney dated March 3, 2017, who stated he
represented defendant in connection with the sale of the
mortgaged premises. Attached to the letter was a copy of
a payoff statement plaintiff had previously sent to
defendant. The payoff statement was sent to the same
address where the process server handed the summons,
complaint, and other documents to Neville Cox. Obviously
defendant obtained the payoff statement at the Brooklyn
address, because he gave it to his attorney. In addition,
the defendant’s attorney’s letter indicates an awareness of
the foreclosure proceeding.
Defendant failed to answer the complaint and final
judgment was entered against him on May 11, 2017. In
February 2018, defendant filed a motion to vacate
judgment. On March 23, 2018, the trial court entered an
order denying defendant’s motion.
In a written decision attached to the order, the
court noted it determined defendant had been properly
served, as evidenced by the fact defendant’s attorney
received from defendant a document sent to the subject
address in Brooklyn. Further, the court found there was

4A

no basis under Rule 4:50-l(a) to vacate the default
judgment. Citing Marder v. Realty Const. Co.. 84 N.J.
Super. 313, 318-19 (App. Div. 1964), the court observed
defendant did not show his failure to file a responsive
pleading was due to excusable neglect and the he had a
meritorious defense.
II
On appeal, defendant asserts
arguments for our consideration:

the

following

POINT I:
THE TRIAL COURT ABUSED ITS
DISCRETION IN FAILING TO VACATE THE
DEFAULT JUDGMENT ON THE GROUNDS OF
EXCUSABLE NEGLECT PURSUANT TO RULE
4:50-l(a).
a. NEWLY
DISCOVERED
EVIDENCE.
RESPONDENT DID NOT RECEIVE IN
PERSONAM
JURISDICTION
BY
SUBSTITUTED
OR
CONSTRUCTIVE
SERVICE - NEVILLE COX WAS NOT A
PERSON
AUTHORIZED
BY
APPOINTMENT OR LAW TO RECEIVE
SERVICE
OF
PROCESS
ON
DEFENDANT’S BEHALF, PURSUANT TO
RULE 4:4-4(a)(l).
b. APPELANT WAS NEVER SERVED WITH
THE SUMMONS, COMPLAINT OR ANY
NOTICES
OF
INTENTION
TO
FORECLOSE INVOLVING THIS ACTION.

I
5A

“A default judgment will be considered void when a
substantial deviation from service of process rules has
occurred, casting reasonable doubt on proper notice.”
Jameson v. Great Atl. & Pac. Tea Co.. 363 N.J. Super.
419, 425 (App. Div. 2003) (citing Sobel v. Long Island
Entm’t Prod.. Inc.. 329 N.J. Super. 285, 293-94 (App. Div.
2000)). Whether a party has been served is a question of
proof. A sheriffs return of service is presumed correct,
and may be rebutted only by clear and convincing
evidence. IcL at 426. “[U]ncorroborated testimony of the
defendant alone is not sufficient to impeach the return.”
Goldfarb v. Roeger. 54 N.J. Super. 85, 90 (App. Div. 1959).
Thus, a defendants’s bald assertion the sheriffs return is
incorrect does not overcome the presumption. Resolution
Tr. Corn, v. Associated Gulf Contractors. Inc.. 263 N.J.
Super, 332, 344 (app. Div. 1993).
Rule 4:4-3 was amended in 2000 to permit service by
private process servers who do not have an interest in the
litigation. See Pressler & Verniero, Current N.J. Court
Rules, cmt. on R 4:4-3 (2002). Consistent with this policy
decision to entrust disinterested persons with the
responsibility to serve process, the presumption of
correctness extends to their affidavits of service as well.
Here, defendant’s mere assertion he was not served does
not rebut the presumption arising from the process
server’s affidavit of service. Uncorroborated assertions
cannot overcome the presumption of correctness that
attached to a process server’s affidavit of service. See
Garlev v. Waddington. 177 N.J. Super. 173, 180-81 (App.
Div. 1981). When before the trial court, defendant did not
provide evidence that refuted or at least challenged the

6A

process server’s claim he served an adult at the Brooklyn
address, who just happened to have the same surname as
defendant. Defendant also did not did explain how he
obtained the payoff statement sent to the Brooklyn
address, which he subsequently gave to his own attorney.
Accordingly, we cannot conclude the court erred when it
denied the motion to vacate the default judgment.
We have considered defendant’s remaining arguments,
and conclude they are without sufficient merit to warrant
discussion in a written opinion. R. 2:ll-3(e)(l)(E). We
merely note defendant did not proffer any reason that
constitutes excusable neglect for failing to file an answer
and did not identify a meritorious defense.
Affirmed,

I hereby certify that the foregoing is
a true copy of the original on file in
my office.
s/
CLERK OF THE APPELATE DIVISION

7A

APPENDIX B
FILED, Clerk of the Appellate Division, March 01, 2019,
A-003679-17, M-004471-18
ORDER ON MOTION

Superior Court of New Jersey
Appellate Division
Docket No. A-003679-17T4
Motion No. M-004471-18
Before
Part B
Judge(s): Amy O’ Connor
Patrick Dealmeida
The Money Source, Inc.
V
Norman Cox, Jr., ET AL
Motion Filed: 02/22/2019

By: Norman Cox Jr.

Answer(s)
Filed:
Submitted to Court:

February 28, 2019
ORDER

This matter having been duly presented to the
court, it is, on this 1st day of March, 2019, hereby ordered
as follows:
Motion by Appellant

8A

Motion for Reconsideration

For the Court:
s/

Amy O’Connor, J.A.D.

Hudson
F-028082-16
Order — Regular Motion
KAK

Denied

9A

APPENDIX C
FILED, Clerk of the Appellate Division, February 11,
2019, A-003679-17, M-004471-18
ORDER ON MOTION

Superior Court of New Jersey
Appellate Division
Docket No. A-003679-17T4
Motion No. M-004471-18
Before
Part B
Judge(s): Amy O’ Connor
Patrick Dealmeida
The Money Source, Inc.
V
Norman Cox, Jr., et al
Motion Filed: 02/01/2019

By: Norman Cox Jr.

Answer(s)
Filed:

02/06/2019

Submitted to Court:

By: The Money Source, Inc
February 07, 2019

ORDER
This matter having been duly presented to the
court, it is, on this 11th day of February, 2019, hereby
ordered as follows:
Motion by Appellant

10A

Motion for Stay Pending Appeal
For the Court:
s/

Amy O’Connor, J.A.D.

F-028082-16
Hudson
Order — Regular Motion
KAK

Denied

11A

APPENDIX D
Superior Court of New Jersey
Appellate Division
Disposition on Application for Permission to File
Emergent Motion
Case Name: The Money Source. Inc, v. Norma Cox. Jr.
Appellate Division Docket Number: (if available):
A-3679-17T4: M-3981-18
Superior Court of New Jersey, Hudson County
Trial Court or Agency Below: Chancery Division
Trial Court or Agency Docket Number: F-028081-16
DO NOT FTLTiTN THTS SECTION - FOR COT TRTITSE ONI ,Y
I. The application for leave to file an emergent motion
on short notice is Denied for the following reasons:

□

The application on its face does not concern a
threat of irreparable injury, or a situation in
which the interests of justice otherwise require
adjudication on short notice. The applicant may
file a motion with the Clerk’s Office in the
ordinary course.

□

The threatened harm or event is not scheduled to
occur prior to the time in which a motion with the
Clerk’s Office and decided by the court. If the
applicant promptly files a motion with the Clerk’s
Office it shall be forwarded to a Panel for decision
as soon as the opposition is filed.

12A

□ The applicant did not apply to the trial court or
agency for a stay, and obtain a signed court order,
agency decision or other evidence of the ruling
before seeking a stay from the Appellate Division.
□ The application concerns an order entered during
trial or on the eve of the trial as to which there is
no prima facie showing that the proposed motion
would satisfy the standards for granting leave to
appeal.
□ The timing of the application suggests that the
emergency is self-generated, given that no good
explanation has been offered for the delay in
seeking appellate relief. Due to the delay, we
cannot consider a short-notice motion within the
time frame the applicant seeks, without depriving
the other party of a reasonable time to submit
opposition. And the magnitude of the threatened
harm does not otherwise warrant adjudicating
this matter on short notice despite the delay. If
the applicant promptly files a motion with the
Clerk’s Office it shall be forwarded to a Panel for
decision as soon as the opposition is filed.
E Other reasons:
Defendant does not identify what the newly
discovered information is that he claims is in
plaintiffs response to his motion, and why
such information is material.

s/
Amy O’Connor, J.A.D.

February 7.2019
Date

13A

APPENDIX E
SWC F 02081-16 03/23/2018

Pg 1 of 6

Trans ID: CHC2018166911
Filed
March 23, 2018

F-28081-16

HON. MARYBETH ROGERS. J.S.C.
The Court vrenared this Order
The Money Source, Inc.
Plaintiff,
v.
Norman Cox Jr., et al.
Defendants.

SUPERIOR COURT OF
NEW JERSEY
HUDSON COUNTY
CHANCERY DIVISION
Docket No.: F-28081-16
Civil Action

ORDER
THIS MATTER, having been opened to the Court by
Norman D. Cox Jr., pro se, (“Defendant”), on a Motion to
Vacate Default Judgment, and the Court having
considered the moving papers, and for good cause having
been shown:
IT IS on this 23rd day of March, 2018, ORDERED:
THAT Defendant’s Motion to Vacate Final Judgement is
hereby DENIED,
THAT Defendant is to serve a copy of this Order upon all
interested parties within seven (7) days of the date of the
Order.

14A

s/

HON. MARYBETH ROGERS, J.S.C.

RECEIVED
APPELLATE
DIVISION
APR 20 2018
SUPERIOR COURT
OF NEW JERSEY

Page 1 of 6

15A

APPENDIX F
Filed
June 6, 2018

F-028081-16

HON. MARYBETH ROGERS. J.S.C.
The Court prepared this Order

SUPERIOR COURT OF NEW JERSEY
CHANCERY DIVISION: HUDSON COUNTY
The Money Source,
Inc.,
Docket No. F-028081-16

Plaintifff,

Civil Action

vs.
Norman D. Cox Jr.,
Defendants.

ORDER

THIS MATTER having been opened to the Court
by Norman D. Cox Jr., pro se defendant, of the foreclosed
premises at 212 78th Street, North Bergen, New Jersey,
and the Court having considered the matter and good
cause having been shown:
IT IS on this 6th day of June, 2018 ORDERED as follows:
1. Defendant’s Motion to Stay the Sheriffs sale
pending appeal is DENIED; and
2. Defendant shall serve a copy of this Order upon all
interested parties within seven (7) days of the date
of this Order.
s/
HON. MARYBETH ROGERS, J.S.C.
Page 1 of 3

16A

APPENDIX G
Your Name: Norman D. Cox Jr.
Address:

212 78th Street

Phone:

(83D 233-2226

Pro Se

FILED
JUN07 2018
JEFFREY R. JABLONSKI, J.S.C.
SUPERIOR COURT OF NEW JERSEY
CHANCERY DIVISION HUDSON COUNTY
GENERAL EQUITY
DOCKET NO: F-028081-16
CIVIL ACTION
ORDER TO STAY SHERIFFS SALE

The Money Source, Inc.
PLAINTIFF,
v.
Norman D. Cox Jr.
DEFENDANT.
This matter having come before the Court to Stay
the Sheriffs Sale by: Norman D. Cox Jr., pro se
defendant, of the foreclosed premises at 212 78th Street.
North Bergen. New Jersey, and the Court having
considered the matter and good cause having been shown:
IT IS, on this 7th day of June. 2018 ORDERED AS
FOLLOWS:

17A

The Sheriffs Sale scheduled for June 7. 2018 is
adjourned to July 5. 2018 upon the following terms and
conditions:
□ Defendant is required to present the Court
with a valid mortgage commitment prior to
the next date of sale;
□ Defendant is required to present the Court
with evidence of a valid closing date prior to
the next date of sale;
E Other: This emergent application is sranted
to permit the defendant to make whatever
application he needs before the Appellate
Division within the next 30 days before the
sheriff sale.
E There shall be no further adjournments of
the Sheriffs Sale for the reasons noted on the
record on June 7. 2018.

si
JEFFREY R. JABLONSKI, J.S.C.

18A

APPENDIX H
SUPREME COURT OF NEW JERSEY
C-983 September Term 2018
082734
The Money Source, Inc.,
Plaintiff-Respondent,
V.

FILED
JUN 13 2019
s/
CLERK

Norman D. Cox, Jr.,
Defendant-Petitioner,

ORDER

A petition for certification of the judgment in A003679-17 having been submitted to this Court, and the
Court having considered the same;
It is ORDERED that the petition for certification is
denied, with costs.
WITNESS, the Honorable Stuart Rabner, Chief Justice,
at Trenton, this 11th day of June, 2019.
si

CLERK OF THE SUPREME COURT

19A

APPENDIX I
SUPREME COURT OF NEW JERSEY
M-1279/1280 September Term 2018
082734
The Money Source, Inc.,
Plaintiff,
V.

FILED
AUG 9 2019
s/
CLERK

Norman D. Cox, Jr.,
Defendant-Movant,

ORDER

It is ORDERED that the motion for reconsideration of
the Court’s order denying the petition for certification (M1279) is denied, and it is further
ORDERED that the motion for stay (M-1280) is
dismissed as moot.
WITNESS, the Honorable Stuart Rabner, Chief Justice,
at Trenton, this 8th day of August, 2019.
s/
CLERK OF THE SUPREME COURT

20A

APPENDIX J
Your Name: Norman D. Cox Jr.
Address:

212 78th Street

Phone:

(831) 233-2226

Pro Se

FILED
OCT 24 2019
JEFFREY R JABLONSKI, J.S.C.
SUPERIOR COURT OF NEW JERSEY
CHANCERY DIVISION HUDSON COUNTY
GENERAL EQUITY
DOCKET NO: F-028081-16
CIVIL ACTION
ORDER DENYING STAY OF SHERIFFS SALE

The Money Source, Inc.
PLAINTIFF,
v.
Norman D. Cox Jr.
DEFENDANT.
This matter having come before the Court to Stay
the Sheriffs Sale by:
Norman D. Cox Jr., pro se
defendant, of the foreclosed premises at 212 78th Street.
North Bergen. New Jersey, and the Court having
considered the matter:
IT IS, on this 24th day of October. 2019 ORDERED AS
FOLLOWS:

21A

The Motion to adjourn the Sheriffs Sale scheduled for
10/24/19 is denied for the following reasons:
□ The Motion is untimely;
□ Defendant has failed to give adequate notice
to all interested parties;
B Other: for the reasons set forth on the record
on 10/24/19
s/
JEFFREY R. JABLONSKI, J.S.C.

22A

APPENDIX K
Your Name: Norman D. Cox Jr.
Address:

212 78th Street

Phone:

(831) 233-2226

Pro Se

FILED
OCT 24 2019
JEFFREY R JABLONSKI, J.S.C.
SUPERIOR COURT OF NEW JERSEY
CHANCERY DIVISION HUDSON COUNTY
GENERAL EQUITY
DOCKET NO: F-028081-16
CIVIL ACTION
ORDER DENYING STAY OF SHERIFFS SALE

The Money Source, Inc.
PLAINTIFF,
v.
Norman D. Cox Jr.
DEFENDANT.
This matter having come before the Court to Stay
the Sheriffs Sale by:
Norman D. Cox Jr., pro se
defendant, of the foreclosed premises at 212 78th Street.
North Bergen. New Jersey, and the Court having
considered the matter:
IT IS, on this MlLday of October. 2019 ORDERED AS
FOLLOWS:

23A

The Motion to adjourn the Sheriffs Sale scheduled for
10/24/19 is denied for the following reasons:
□ The Motion is untimely;

□

Defendant has failed to give adequate notice
to all interested parties;

0 Other: for the reasons set forth on the record
on 10/24/19
s/
JEFFREY R. JABLONSKI, J.S.C.

r

